No. 19-1104
MARK JANUS, PETITIONER,
V.

AMERICAN FEDERATION OF STATE, COUNTY, AND MUNICIPAL
EMPLOYEES, COUNCIL 31, ET AL., RESPONDENTS.

CERTIFICATE OF SERVICE
I, Jane Elinor Notz, a member of the Bar of this Court, certify that on May 11, 2020,
I emailed a copy of the BRIEF IN OPPOSITION FOR RESPONDENTS KWAME
RAOUL AND JANELL. FORDE in the above entitled case to all parties required to
be served, and who consented to electronic service only, pursuant to this Court's
order of April 15, 2020, strongly encouraging electronic service when feasible. Those
emails were addressed to the following:
William L. Messenger
Counsel for Petitioner
wlm@nrtw.org

John Miller West
Counsel for Respondent AFSCME
jwest@bredhoff.com

Jane Elin Notz
100 West Randolp Street
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
Counsel for Respondents
Kwame Raoul and Janel L. Forde

